   October 28, 2004




Financial Management
Assessment of the U.S. Army Corps
of Engineers, Civil Works, FY 2004
Beginning Financial Statement
Balance of Construction-In-Progress
(D-2005-008)




                  Department of Defense
              Office of the Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
BPA                   Bonneville Power Administration
CEFMS                 Corps of Engineers Financial Management System
CIP                   Construction-in-Progress
COEMIS                Corps of Engineers Management Information System
GAAP                  Generally Accepted Accounting Principles
GAO                   Government Accountability Office
PP&E                  Property, Plant, and Equipment
USACE                 U.S. Army Corps of Engineers
                           INSPECTORGENERAL
                         DEPARTMENT
                         --           OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                        October 28,2004
MEMORANDUM FOR COMMANDER AND CHIEF OF ENGINEERS, U.S. ARMY
                 CORPS OF ENGINEERS
SUBJECT: Report on Assessment of the U.S. Army Corps of Engineers, Civil Works,
         FY 2004 Beginning Financial Statement Balance of Construction-In-
         Progress (Report No. D-2005-008)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The U.S. Army Corps of Engineers comments were responsive but lacked estimated
completion dates for all of the corrective actions. We request that the U.S. Army Corps
of Engineers provide additional comments for Recommendations A.3 and B.2 by
December 28,2004.
       If possible, please send management comments in electronic format (Adobe
Acrobat file on1y)io ~ud-~olu@dod~e.osd.mil.      Copies of the management comments
must contain the actual sitmature of the authorizine official. We cannot acccot the
I Signed / symbol in placeof the actual signature. i f you arrange to send clas'sified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at (614) 75 1-1400, extension 21 1, or Ms. Amy J. Frontz at
(614) 751-1400, extension 213. See Appendix D for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                        Paul ~(Gkmetto,CPA
                                      Assistan Inspector General
                                    for Defense Financial Auditing
                                               Service
          Office of the Inspector General of the Department of Defense
Report No. D-2005-008                                                    October 28, 2004
   (Project No. D2004FJ-0032)

      Assessment of the U.S. Army Corps of Engineers, Civil Works,
                FY 2004 Beginning Financial Statement
                  Balance of Construction-In-Progress

                                 Executive Summary

Who Should Read This Report and Why? U.S Army Corps of Engineers officials and
personnel responsible for financial reporting should read this report. It discusses issues
related to the financial reporting of Construction-in-Progress on the financial statements.

Background. Construction-in-Progress was part of the $30.9 billion of General
Property, Plant, and Equipment assets that the U.S. Army Corps of Engineers reported on
its FY 2003 financial statements. We previously reported that the $10 billion beginning
Construction-in-Progress balance on the FY 2003 U.S. Army Corps of Engineers
Financial Statements was materially overstated.

Results. The U.S. Army Corps of Engineers significantly improved its financial
reporting of Construction-in-Progress by removing invalid items and correcting errors.
As a result, the U.S. Army Corps of Engineers reduced its Construction-in-Progress
balance to $3.8 billion at the end of FY 2003. However, the reduced balance was still not
reliable and was misstated by $640 million. In addition, $188 million of valid
Construction-in-Progress could not be supported by originating source data. Continued
material misstatement and lack of support for Construction-in-Progress will preclude the
U.S. Army Corps of Engineers from gaining a favorable audit opinion on its financial
statements.

The U.S. Army Corps of Engineers needed to ensure proper implementation of its
FY 2004 Construction-in-Progress Information Paper, which addresses deficiencies
involving invalid and unsupported Construction-in-Progress assets. The U.S. Army
Corps of Engineers also needed to perform a comprehensive review of the
Construction-in-Progress account and remove all costs involving the purchase or
development of wildlife mitigation land. Additionally, the U.S. Army Corps of
Engineers needed to disclose in the financial statements the portion of the
Construction-in-Progress balance that will be turned over to other Federal agencies upon
completion (finding A).

The U.S. Army Corps of Engineers did not properly account for costs involving the
Columbia River Fish Mitigation Program. As a result, the U.S. Army Corps of Engineers
overstated its FY 2004 Construction-in-Progress beginning balance by approximately
$536 million. In addition, completed Columbia River Fish Mitigation Program work is
accruing excessive capital interest charges. The U.S. Army Corps of Engineers needed to
address deficiencies involving Columbia River Fish Mitigation Program costs and
discontinue accruing capital interest for completed Columbia River Fish Mitigation
Program work (finding B). See the Findings section of the report for the detailed
recommendations.

Management Comments and Audit Response. The Commander of the U.S. Army
Corps of Engineers concurred with all of the findings and recommendations. The
comments were responsive, however, we request implementation dates for all corrective
actions and a plan for reporting hydropower-related costs by December 28, 2004. See the
finding sections of the report for a discussion of management comments and the
Management Comments section of the report for a complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     2

Findings
     A. Financial Reporting of CIP                                             3
     B. Financial Reporting of Columbia River Fish Mitigation Program Costs   13

Appendixes
     A. Scope and Methodology                                                 21
         Management Control Program Review                                    23
         Prior Coverage                                                       23
     B. Other Matters of Interest                                             25
     C. Breakout of Audit Sample Items by Activity Reviewed                   26
     D. Report Distribution                                                   27

Management Comments
     U.S. Army Corps of Engineers                                             29
Background
    We performed this audit assessment to meet the requirements of Public Law
    101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990, as
    amended by Public Law 103-356, the “Federal Financial Management Act of
    1994,” October 13, 1994, and the National Defense Authorization Act of 2002.
    The U.S. Army Corps of Engineers (USACE), Civil Works, reports General
    Property, Plant, and Equipment (PP&E) as a line item on the financial statements.
    For FY 2003, General PP&E was the most significant asset category on the
    USACE financial statements, reported at a net value of $30.9 billion. USACE
    uses the Construction-in-Progress (CIP) account to accumulate labor, material,
    and overhead costs for real property construction projects. Upon completion, the
    constructed property is either placed in service by USACE as General PP&E or
    transferred to another Federal or non-Federal agency. CIP represented
    $3.8 billion (12 percent) of the $30.9 billion PP&E reported on the FY 2003
    USACE financial statements. The FY 2003 ending balances represent the
    beginning balances for the FY 2004 financial statements.

    USACE Mission. The USACE Civil Works mission includes: development and
    management of the nation’s water resources; protection, restoration, and
    management of the environment; disaster response and recovery; and providing
    engineering and technical services to Federal entities, state and local
    governments, private firms, and international organizations. While performing its
    mission, USACE capitalizes as CIP all costs associated with the initial
    construction of a capital asset as well as any addition and/or betterment to an
    existing capital asset. The USACE capitalizes General PP&E assets at historical
    acquisition cost plus capital improvements when an asset has a useful life of 2 or
    more years, and when the acquisition cost equals or exceeds $25 thousand.

    USACE Financial Reporting Systems. USACE uses the Corps of Engineers
    Financial Management System (CEFMS) for the financial reporting of CIP.
    During FY 1998, USACE completed the deployment of CEFMS to all its
    divisions, districts, centers, laboratories, and field offices. CEFMS replaced the
    Corps of Engineers Management Information System (COEMIS).

    Generally Accepted Accounting Principles (GAAP). The GAAP for the
    financial reporting of PP&E are provided in the Federal Accounting Standards
    Advisory Board’s Statement of Federal Financial Accounting Standards No. 6,
    “Accounting for Property, Plant, and Equipment,” June 1996. The GAAP define
    PP&E as tangible assets that meet all of the following criteria: have an estimated
    useful life of 2 or more years, are not intended for sale in the ordinary course of
    business, and are intended to be used or available for use by the entity.
    Constructed PP&E is required to be recorded as CIP until placed in service.

    The GAAP define Federal tangible assets as items owned by the Federal
    Government, which would have probable economic benefits that can be obtained
    or controlled by a Federal Government entity. The GAAP define capitalization as
    recording and carrying forward expenditures for realization of benefits in one or
    more future periods. Expenses are defined as an outflow or depletion of assets
    during a specific period as a result of providing goods, rendering services, or


                                         1
    carrying out other activities related to an entity’s programs and missions, the
    benefits from which do not extend beyond the present operating period.

    DoD Accounting Policy for CIP. The DoD policy for the financial reporting of
    CIP is provided in DoD 7000.14-R, the DoD Financial Management Regulation,
    volume 4, chapter 6, “Accounting Policy and Procedures – Property, Plant &
    Equipment,” August 2000. The DoD definition of PP&E is consistent with
    GAAP and also requires that the PP&E have an initial acquisition cost, book
    value, or fair market value that equals or exceeds the DoD capitalization
    threshold. The DoD Financial Management Regulation further states that for a
    constructed General PP&E asset, the cost to construct the asset shall be recorded
    as CIP until the asset is completed and available for use, whether or not it is
    actually placed in use at that time. According to the DoD Financial Management
    Regulation, the available-for-use date is not dependent on whether the constructed
    asset has been officially transferred or whether final payment has been made and
    the contract closed out. When the constructed asset is available for use, DoD
    policy requires that the balance recorded in the CIP account be transferred to the
    appropriate General PP&E account.

    USACE Accounting Policy for CIP. The USACE policy for the financial
    reporting of CIP is provided in USACE memorandum, “Revised Capitalization
    Guidance for Civil Works Personal Property,” September 29, 1997. The USACE
    policy requires that all costs associated with the initial construction of a capital
    asset and all costs associated with the construction of an addition and/or
    betterment to an existing capital asset will be capitalized as CIP. The policy
    provides the following examples of costs that should be capitalized as CIP: land
    acquisition costs, relocation costs, engineering and design costs, supervision and
    administration costs, and actual contract and in-house construction costs.

    On the other hand, the policy states that costs for construction-related activities
    that do not result in the creation of a capital asset must be recorded as expenses.
    The USACE policy provides the following examples of expense-type activities
    that should not be capitalized as CIP: beach replenishment; excavation or
    dredging of channels in existing waterways; excavation or dredging of navigation
    ports and harbors; removal of trees, brush, or debris in existing waterways;
    special project reports; and feasibility studies (unless legislatively directed to be
    capitalized as CIP).


Objectives
    Our overall audit assessment objective was to determine whether USACE, Civil
    Works, CIP assets were ready for audit. Specifically, we determined whether
    USACE had corrected the deficiencies we identified during FY 2003 and whether
    the financial reporting of CIP assets was consistent with GAAP. We also
    reviewed the management control program as it related to the audit objective. See
    Appendix A for a discussion of the scope and methodology, our review of the
    management control program, and prior coverage related to the objectives. See
    Appendix B for other matters of interest related to our coverage of the audit
    objectives.


                                          2
                    A. Financial Reporting of CIP
                    USACE significantly improved its financial reporting of CIP during
                    FY 2003 but deficiencies continued to exist, and CIP continued to be
                    materially misstated. The CIP account had the following deficiencies;

                            •    costs for non-USACE owned assets were reported as CIP,

                            •    expense-type events were reported as CIP,

                            •    costs for completed construction projects were not transferred
                                 out of CIP in the proper accounting period, and

                            •    costs for valid USACE-owned CIP could not be supported by
                                 originating source data.

                    These problems existed because USACE actions to correct previously
                    identified deficiencies with CIP financial reporting were incomplete, and
                    USACE accounting policy did not conform with GAAP. As a result, the
                    $3.8 billion beginning balance for CIP in the FY 2004 USACE financial
                    statements was overstated by $640 million and an additional $188 million
                    was unsupported. Continued CIP account deficiencies will preclude
                    USACE from gaining a favorable audit opinion on its financial statements.


Improvements to CIP Financial Reporting
           FY 2003 Corrective Actions. During our prior audit, we informed USACE that
           the FY 2003 USACE CIP beginning balance was materially overstated.1 USACE
           initiated aggressive corrective actions to correct deficiencies in the CIP account.
           USACE internal review auditors monitored and assisted USACE program
           managers and accountants as they cleansed the CIP accounts through
           September 30, 2003.

           USACE subsequently reported a CIP ending balance of $3.8 billion on its
           FY 2003 Financial Statements. This represented a $6.2 billion reduction from the
           $10.0 billion CIP ending balance reported on the USACE FY 2002 Financial
           Statements. However, USACE did not reclassify costs for expense-type events
           involving bank stabilization work, fish mitigation studies, or non-Federal cost
           share projects in the CEFMS subsidiary ledgers. Instead, USACE processed
           journal vouchers to make statement-level adjustments to the FY 2003 CIP
           balance. Specifically, USACE made a $3.7 billion adjustment to remove costs for
           non-Federal cost share projects and another $256 million adjustment to remove
           costs for fish mitigation studies. USACE did not take any actions to remove costs
           involving bank stabilization work from the CIP account.


1
    Inspector General, DoD, report number D-2004-017, “Reliability of Construction-in-Progress in the U.S.
    Army Corps of Engineers, Civil Works, Financial Statements,” November 7, 2003.



                                                      3
    USACE also reported CIP with negative balances totaling $41 million in
    FY 2002. USACE reduced the negative balance to $1 million in FY 2003. In
    addition, USACE developed a report in CEFMS that links CIP values to the
    applicable source documents. These USACE corrective actions resulted in
    significant improvements to the financial reporting of CIP.

    FY 2004 Corrective Actions. We provided interim audit results to USACE in
    March 2004. USACE took action to further improve its accounting policy for
    CIP and developed a comprehensive FY 2004 CIP Information Paper to address
    our audit concerns. The CIP Information Paper describes the deficiencies
    identified in the CIP account and provides the necessary corrective actions to be
    implemented by USACE field activities that report CIP. Specifically, the CIP
    Information Paper addresses the following issues;

           •   proper accounting for non-Federal cost share projects (projects that
               will not be USACE owned upon completion),

           •   proper treatment of fish mitigation studies,

           •   proper treatment of bank stabilization projects,

           •   proper classification of capitalized versus expense costs,

           •   timely closeout of completed projects,

           •   supporting documentation for older pre-CEFMS projects,

           •   review of funded work items remaining in the CEFMS CIP account
               that originated in COEMIS, and

           •   correction of negative CIP balances and imbalances between CIP
               general ledgers and cost records.

    The CIP Information Paper requires that all corrective actions be completed by
    October 31, 2004. If properly implemented, the CIP Information Paper should
    correct the significant deficiencies we have identified in the CIP account.


CIP Assets Reviewed
    We tested the FY 2004 CIP beginning balance to determine the amount of
    progress that USACE made in reporting CIP. We selected a statistical sample of
    336 items, valued at $2.7 billion, from the population of CIP assets comprising
    the $3.8 billion CIP value reported on the FY 2003 USACE financial statements.
    A sample item could include separable asset elements. Therefore, a sampled CIP
    asset could have portions that were valid and portions that were in error. Table 1
    shows a summary of the audit results for the 336 sample items by audit
    conclusion.




                                         4
              Table 1. Audit Results for 336 Statistical Sample Items
                                   ($ in millions)
                                         No.       CIP     Amount Amount Not
           Audit Conclusion             Items    Value    Misstated Supported1
    Owned by non-Federal Agencies          88   $ 374       $374        $0
    Owned by Other Federal Agencies        17        94       24         0
    USACE Expense-Type Events              37       717      121         0
    USACE Completed Assets                 33       186      121         0
    USACE Fish Mitigation Studies2         40       175        0         0
    USACE-Owned Valid CIP                121      1,158        0       188
        Total                                      336     $2,704         $640            $188
    1
     The amount not supported was only summarized for valid CIP that was owned by USACE
    2
     All $175 million CIP involving fish mitigation studies was misstated. However, the balance is
    included as part of $536 million of erroneous fish mitigation studies discussed in Finding B.



    We also tested the accuracy of the USACE journal voucher that removed
    $3.7 billion of costs for non-Federal cost share projects from the FY 2003 CIP
    financial statement balance. This test involved a random sample of 45 projects.
    The purpose of this test was to assess the controls over the methodology USACE
    used to identify and remove CIP that would be transferred to a non-Federal
    agency upon completion. USACE representatives explained that their journal
    voucher included all CIP assets identified by a CEFMS non-Federal cost share
    control number data element. We tested the accuracy of this data element using a
    pass/fail methodology that did not involve dollar values. See Appendix A for
    details on the statistical sampling plan and results. Appendix C contains a list of
    the total sample items reviewed, broken out by USACE activity.


CIP Not Owned By USACE
    A significant portion of the USACE mission is to provide engineering and
    construction management support for other agencies, which sometimes share a
    portion of the project cost. Projects that will be transferred to non-Federal
    agencies upon completion are referred to as non-Federal cost share projects.
    USACE uses its CIP account to accumulate labor, material, and overhead costs
    for these projects. Upon completion, USACE transfers the constructed property
    to the applicable agency that shared a portion of the costs. The constructed
    property is not recorded as USACE General PP&E and does not result in a future
    economic benefit to USACE. Existing USACE accounting policy did not
    conform with GAAP and did not address the accounting treatment for CIP that
    would not be owned by USACE upon completion.

            Ownership by Non-Federal Agencies. USACE did not identify all CIP
    assets that would be transferred to non-Federal agencies upon completion when it


                                               5
processed a journal voucher to remove $3.7 billion of costs for non-Federal cost
share projects from CIP. In the audit sample, 88 items, valued at $374 million,
will be turned over to non-Federal cost share agencies upon completion.

        For example, our sample included 12 items with CIP costs totaling
$52 million for the Mississippi River Levee Project at the Vicksburg District.
The completed assets will be transferred by USACE to State Levee Boards in
Arkansas, Mississippi and Louisiana for operation and maintenance. The
Mississippi River Levee Project is for flood control of the Mississippi river and
its associated tributaries. The project consists of raising, strengthening and
extending levees to provide protection against flooding. The non-Federal portion
consists primarily of costs that the levee districts incur for land easement rights.
This project does not involve the construction of any assets that will be owned or
that will provide future economic benefits to USACE. These projects should not
be recorded as CIP on the USACE financial statements.

        Ownership by Other Federal Agencies. In the audit sample, 17 items,
valued at $94 million, will be turned over to other Federal agencies upon
completion. These assets do not economically benefit USACE but do result in
assets to the Federal government. USACE did not properly disclose the nature
and value of these projects in its financial statements.

        For example, there were seven items valued at $32 million that involved
construction of the Kentucky Lock and Dam at the USACE Nashville District.
Upon completion, USACE will transfer the Kentucky Lock and Dam to the
Tennessee Valley Authority. The Tennessee Valley Authority is a wholly owned
corporate agency and instrumentality of the United States created by Congress in
1933 to provide navigation, flood control, agricultural and industrial
development, and electrical power to the Tennessee Valley region. The USACE
FY 2003 financial statements did not include any reference to the Kentucky Lock
and Dam project or that it would be turned over to the Tennessee Valley
Authority upon completion. USACE should disclose the portion of its CIP
balance that will be turned over to other Federal agencies upon completion in the
notes to its financial statements. In addition, USACE should coordinate with the
receiving agency to ensure that the receiving agency is not also reporting the
same CIP on its financial statements. Duplicate reporting would overstate the
CIP balance reported on the Government-wide financial statements

        There were 3 of the 17 items, valued at $24 million, involving work for
the benefit of other Federal agencies that did not result in the construction of
capital assets. These costs should not have been recorded as CIP but should have
been expensed in the period incurred. Two of the items involved payments to the
Tennessee Valley Authority for the relocation of existing transmission towers it
owned. The third item involved bank stabilization work performed for the
National Park Service.

        Sample of Non-Federal Cost Share Projects. The USACE journal
voucher to remove costs for non-Federal cost share projects from CIP erroneously
included assets that will become USACE General PP&E upon completion. Of 45
projects sampled, eight will be placed in service by USACE upon completion and
not transferred to a non-Federal agency. Based on the auditing guidelines


                                     6
           established by the Government Accountability Office (GAO), one error in a
           sample of 45 indicates a control weakness.2

                   For example, one project at the USACE Kansas City District (identified
           by Army Management Structure Code 017560) involved costs for the replacement
           of governor pumps, motors, and controls at the USACE-owned Stockton Power
           Plant. A non-Federal cost share control number was established in CEFMS for
           this project because all associated costs were funded by the City Water and Light
           Plant of the City of Jonesboro, Arkansas. However, all assets related to the
           project will be placed in service as USACE General PP&E upon completion and
           should have remained as part of the CIP balance reported on the USACE FY 2003
           Financial Statements. Because USACE cannot rely on the non-Federal cost share
           control number to accurately identify CIP that will be transferred to non-Federal
           agencies upon completion, a comprehensive review of all CIP must be performed
           to determine the ultimate ownership.


Reporting Expense-Type Events as CIP
           USACE activities were still reporting expense-type events as CIP. For 37 sample
           items, CIP values totaling $121 million involved expense-type events that were
           improperly reported (capitalized) as CIP. Table 2 shows a breakout of the
           expense-type events. These expense-type events do not result in the creation of
           capital assets and should not be reported as CIP. Existing USACE accounting
           policy did not conform with GAAP and did not address the accounting treatment
           for these expense-type events. USACE needs to review the CIP account and
           remove all costs involving expense-type events.


                    Table 2. Breakout of Expense-Type Events Recorded as CIP
                                           No.      Amount of CIP balance in Error
              Expense-Type Event          Items              (in millions)
           Wildlife Mitigation Land           5                  $ 80
           Bank Stabilization Work            6                     36
           Miscellaneous                     26                       5
            Total                            37                  $121


                   Wildlife Mitigation Land. For five sample items, USACE activities
           inappropriately reported $80 million of costs for the purchase and development of
           wildlife mitigation land as CIP. This occurred because USACE accounting policy
           did not follow GAAP for these types of costs. Specifically, these costs were
           considered to be in error for two reasons.

2
    General Accounting Office / President’s Council on Integrity & Efficiency, “Financial Audit Manual
    (GAO-01-765G),” July 2001. The legal name for the General Accounting Office became the
    Government Accountability Office effective July 7, 2004.



                                                      7
First, a portion of the costs involved the USACE purchase of land for fish and
wildlife mitigation purposes. These costs should not be reported as CIP but
should be expensed and reported as Stewardship Land as set forth in the Federal
Accounting Standards Advisory Board Statement of Federal Financial
Accounting Standard Number 8, “Required Supplementary Stewardship
Reporting.” Specifically, the standard defines stewardship land as land and land
rights owned by the Federal Government and not acquired for or in connection
with General PP&E. According to the standard, examples of stewardship land
include land used as forests and parks and land used for wildlife and grazing. The
standard states that the cost of stewardship land, as well as associated costs to
prepare the land for its intended use (e.g., razing a building), shall be expensed in
the period incurred.

Second, a portion of the costs involved mitigation-type work performed by
USACE on land owned by other agencies. Costs for assets that will not be placed
in service as USACE General PP&E upon completion should be expensed as set
forth in GAAP. These costs should be reported as non-Federal Physical property
as set forth in the Federal Accounting Standards Advisory Board’s Statement of
Federal Financial Accounting Standard Number 8, “Required Supplementary
Stewardship Reporting.” Specifically, investments in non-Federal physical
property refers to those expenses incurred by the Federal Government for the
purchase, construction, or major renovation of physical property owned by state
and local governments, including major additions, alterations, and replacements;
the purchase of major equipment; and the purchase or improvement of other
physical assets. Expenses included in calculating net cost for non-Federal
physical property programs should be reported as investments in required
supplementary stewardship information accompanying the financial statements of
the Federal Government and the separate reports of component units of the
Federal Government responsible for such investments. Reporting should include
data, in nominal dollars, on investments for the year being reported and for the
preceding 4 years. Additional year data may also be reported if such data would
provide better indications of the nature of the investment.

        Bank Stabilization Work. For six sample items, USACE activities
inappropriately reported $36 million in costs for stabilizing the banks of existing
waterways as CIP. Bank stabilization involves fortifying the banks of existing
waterways through the use of rocks (rip rap) or concrete mats (revetments).
These events represent the maintenance of existing waterways and do not result in
the construction of capital assets. For example, the USACE Memphis District
reported $20 million of bank stabilization costs as CIP for two items that were
part of the Channel Improvement Construction Project. The channel
improvement project consists of stabilizing the banks of the Mississippi River to a
desirable alignment and obtaining the most efficient flow characteristics for flood
control and navigation. The bank stabilization costs should have been expensed
when incurred. Existing USACE policy did not specifically identify bank
stabilization work as an expense-type event.

       Other Miscellaneous Expense-Type Events. For 26 sample items,
USACE activities inappropriately reported $5 million of costs involving other
miscellaneous expense-type events as CIP. These events did not result in the
construction of USACE capital assets and included cash awards, routine operation


                                      8
          and maintenance costs, late payment interest, and other miscellaneous
          expense-type events.


Transfer of Completed Projects
          USACE activities did not transfer costs for completed construction projects out of
          the CIP account in the proper accounting period. For 33 sample items, CIP values
          totaling $121 million were related to projects completed prior to
          September 30, 2003. The costs for the completed assets should have been
          transferred out of the CIP account and placed in service as USACE real property.
          For example, a sample item at the USACE Portland District (identified by fund
          account number G212884) involved three separate capital improvement projects
          at the USACE Dalles Dam. The September 30, 2003, CIP balance was
          $5.6 million. Capital improvements totaling $5.5 million were completed prior to
          September 30, 2003, and should have been transferred out of CIP and placed in
          service. Specifically, one of the capital improvement projects valued at
          $2.7 million was completed in August 2000 and another capital improvement
          project valued at $2.8 million was completed in August 2001.


Support for CIP Values
          USACE made significant improvements in supporting CIP values with originating
          source data. Of the 121 items with approximately $1.2 billion of valid USACE-
          owned CIP, USACE activities provided source data to support $969 million of the
          value. Despite the significant progress, USACE was unable to provide all of the
          documentation needed to support the CIP values. Specifically, USACE was
          unable to provide source data to support $188 million of the $1.2 billion CIP
          value. Originating source data was required to support the CIP values because a
          recent review by the GAO in coordination with the U.S. Army Audit Agency
          determined that the CEFMS could not be relied on for financial statement
          auditing purposes.3
          Unsupported CIP Originating in COEMIS. Approximately $184 million of the
          $188 million unsupported CIP value involved sample items with costs that were
          originally reported in COEMIS, which was the USACE financial management
          system prior to FY 1998. During FY 1998, USACE completed the deployment of
          CEFMS to all its divisions, districts, centers, laboratories, and field offices. As
          part of the deployment, the CIP values were transferred from COEMIS to
          CEFMS. For the work items that originated in COEMIS, USACE activities had
          difficulty identifying CIP values to originating source data in a timely manner.

          The largest unsupported CIP balance originating in COEMIS involved costs for
          construction of the Elk Creek Dam at the USACE Portland District. The Portland
          District could not provide source data to support any of the $94 million CIP costs

3
    GAO Report Number GAO-02-589,”Corps of Engineers Making Improvements, But Weaknesses
    Continue,” June 10, 2002.



                                                9
    that did not involve labor or capital interest. In 1987, construction of the Elk
    Creek Dam was stopped by a court injunction at about one-third of the dam
    design height. Since 1987, the only costs that have been incurred involve land
    management, maintenance, and fish passage operations.

    On June 9, 2004, USACE and the Office of the Inspector General of the
    Department of Defense signed a memorandum of agreement regarding the support
    for recorded book cost of USACE Civil Works General PP&E. The agreement
    outlines acceptable support for CIP costs that originated in the COEMIS. The
    USACE agreed to establish and implement procedures by November 15, 2004,
    that require that COEMIS costs associated with assets still in CIP be supported
    before the associated assets are placed in service. The agreed upon procedures, if
    properly implemented, should significantly reduce the amount of unsupported
    CIP costs. The memorandum of agreement is included in the USACE FY 2004
    CIP Information Paper.

    Unsupported CIP Originating in CEFMS. Approximately $4 million of the
    $188 million unsupported CIP value involved sample items with costs that
    originated in CEFMS. The sample items that originated in CEFMS were
    generally better supported than those originating in COEMIS. Based on our prior
    audit results, USACE developed a standard report in CEFMS that identified CIP
    values to originating source documents. USACE should continue to use and
    improve the standard CEFMS report.


Conclusion
    USACE significantly improved its financial reporting of CIP during FY 2003.
    However, deficiencies continued to exist and CIP continued to be materially
    misstated. The $3.8 billion USACE CIP account represents a material portion of
    the total assets reported on the USACE financial statements. The $640 million of
    misstated CIP costs identified by this report greatly exceeds the materiality
    threshold generally established for financial statement audits. Misclassified CIP
    costs impact the total assets and expenses reported on the USACE financial
    statements. In addition, for CIP assets that will remain as USACE property upon
    completion, the costs accumulated in CIP will serve as a basis for the value of the
    real property when it is placed in service. Therefore, it is imperative that CIP
    assets be presented in a manner consistent with GAAP. This will significantly aid
    USACE efforts to achieve a favorable audit opinion on its financial statements.




                                        10
Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Commander of the U.S. Army Corps of
    Engineers:

          1. Ensure proper implementation of the FY 2004 Construction-in-
    Progress Information Paper requiring the following corrective actions:

                 a. Removal of costs for non-Federal cost share projects from
    the Construction-in-Progress account.

                 b. Removal of costs involving bank stabilization work from the
    Construction-in-Progress account.

                  c. Proper classification of capitalized versus expensed costs.

                  d. Timely closeout of completed projects.

                  e. Supporting documentation for older projects originating in
    the Corps of Engineers Management Information System.

                  f. Review of funded work items remaining in Corps of
    Engineers Financial Management System Construction-in-Progress account
    that originated in the Corps of Engineers Management Information System.

                g. Correction of negative Construction-in-Progress balances
    and imbalances between Construction-in-Progress general ledgers and cost
    records.

    Management Comments. The Commander of the U.S. Army Corps of
    Engineers concurred with the findings and recommendations. The Commander
    stated that the U.S. Army Corps of Engineers headquarters developed an
    information paper to ensure all corrective actions above are addressed. The
    information paper was reviewed by the Office of the Inspector General of the
    Department of Defense. The Commander stated that the expected completion
    date is October 31, 2004.

           2. Disclose in the financial statements the portion of the Construction-
    in-Progress balance that will be turned over to other Federal agencies upon
    completion, and coordinate with the receiving agency to ensure that the
    receiving agency is not also reporting the same Construction-in-Progress
    balance on its financial statements.

    Management Comments. The Commander of the U.S. Army Corps of
    Engineers concurred with the findings and recommendations. The Commander
    agreed to disclose in the FY 2004 financial statements the Construction-in
    Progress balance that will be turned over to other Federal agencies upon
    completion. He also agreed to coordinate with the receiving agency to avoid
    duplicate reporting.


                                      11
        3. Perform a comprehensive review of the Construction-in-Progress
account and remove all costs involving the purchase or development of
wildlife mitigation land. The related costs, as well as any future costs, should
be expensed in the period incurred and reported as Stewardship Land on the
Required Supplementary Stewardship Information Statement.

Management Comments. The Commander of the U.S. Army Corps of
Engineers concurred with the findings and recommendations. The Commander
agreed to perform a comprehensive review of the Construction-in-Progress
account to determine the extent of wildlife mitigation work performed on
Stewardship Land. However, the Commander did not provide an estimated
completion date for the corrective action.

Audit Response. The corrective actions were responsive but the Commander
needs to provide an estimated completion date.




                                   12
           B. Financial Reporting of Columbia
              River Fish Mitigation Program Costs
           USACE did not properly account for costs involving the Columbia River
           Fish Mitigation Program (Columbia River Program). This occurred
           because USACE accounted for Columbia River Program costs based on
           its interpretation of a 1993 Senate Conference Report rather than GAAP.
           As a result, USACE overstated its FY 2004 CIP beginning balance by
           approximately $536 million. In addition, completed Columbia River
           Program work is accruing excessive capital interest charges.


Columbia River Program Background
    USACE Role in the Columbia River Program. The Columbia River Program
    was initiated at the USACE Northwest Division in 1988 to improve fishways and
    bypass systems at the lower Columbia and Snake River dams. The Columbia
    River Program was necessary because the National Marine Fisheries Service
    listed twelve types of salmon and steelhead fish as threatened or endangered
    under the Endangered Species Act.

    When a Federal agency’s operations may affect species listed under the
    Endangered Species Act, that agency must consult with the listing agency on
    those operations. The listing agency then issues a biological opinion on the effect
    of the proposed operations. If the biological opinion finds that proposed agency
    actions would jeopardize the continued existence of the listed species,
    recommended measures to avoid jeopardy are proposed in a reasonable and
    prudent alternative.

    USACE currently operates its dams based on biological opinions from the
    National Marine Fisheries Service for salmon and steelhead, and from the
    U.S. Fish and Wildlife Service for other Columbia River Basin species listed
    under the Endangered Species Act. The National Marine Fisheries Service
    Biological Opinions for salmon and steelhead require improvements to existing
    fish bypass systems at USACE dams.

    Substantial funding for the Columbia River Program began in the Energy and
    Water Development Appropriation Bill of 1993 (Senate Report 102-344). In the
    bill, the Committee on Appropriations urged USACE to place greater emphasis
    on the development of improved technologies relating to the transportation,
    collection, and release of migrating juvenile salmon. The bill established specific
    guidance for dealing with Columbia River juvenile fish mitigation in the Pacific
    Northwest. USACE representatives estimated that the Columbia River Program
    would continue until at least FY 2010.

    Bonneville Power Administration’s Role in the Columbia River Program.
    The Bonneville Power Administration (BPA) is a federal agency, under the U.S.
    Department of Energy, that markets wholesale electrical power and operates and
    markets transmission services in the Pacific Northwest. The power comes from


                                        13
    31 Federal hydroelectric projects, one non-Federal nuclear power plant, and
    several other small non-Federal power plants. USACE owns and operates 21 of
    the 31 Federal hydroelectric projects used to provide power to BPA. The
    hydroelectric projects and the electrical system are known as the Federal
    Columbia River Power System. About 45 percent of the electric power used in
    the Northwest comes from BPA.

    Construction and replacement of USACE power generating facilities historically
    have been financed through annual Federal Appropriations. BPA is a self-
    funding agency, which pays for its costs through power and transmission sales.
    Both power and transmission are sold at cost, and BPA repays any borrowing
    from the U.S. Treasury with interest. BPA must maintain sufficient revenues to
    repay the power investment in each Federal hydroelectric project, with interest,
    within 50 years after the project is placed in service. Additionally, BPA must
    maintain sufficient revenues to pay interest on the unrepaid investment in power
    facilities financed with appropriated funds. This responsibility includes
    recovering the costs for the Columbia River Program, which are also financed
    through annual Federal Appropriations.

    BPA is responsible for preserving the balance and the economic and
    environmental benefits of the Federal Columbia River Power System, which
    includes the accounts of USACE power generating facilities. BPA purchases,
    transmits, and markets power for USACE. Each entity is separately managed and
    financed, but the facilities are operated as an integrated power system with
    combined financial results. The costs of multipurpose USACE projects are
    charged to specific projects through a cost allocation process. Only the portion of
    the total project costs allocated to power is included in BPA financial statements.
    USACE Districts are responsible for providing financial statements to BPA for
    each USACE hydroelectric facility included in the Federal Columbia River Power
    System.


USACE Financial Reporting of Columbia River Program
  Costs
    USACE Policy on Reporting Columbia River Program Costs. The USACE
    capitalization policy does not specifically address Columbia River Program costs.
    However, USACE headquarters issued a policy memorandum to the Commander
    of the North Pacific Division: “Accounting Policy for the Columbia River
    Juvenile Fish Mitigation: WA, OR and ID,” June 2, 1995. The memorandum
    stated that in keeping with the intent of the Senate Report Language, fish
    mitigation analysis costs should be considered CIP until the mitigation analysis is
    considered complete. The memorandum also stated that upon completion of the
    mitigation analysis, an equitable share of the capitalized fish mitigation analysis
    costs will be immediately allocated to all portions of the projects involved.

    Senate report language from the Energy and Water Development Appropriation
    Bill of 1993 (Senate Report 102-344) established guidance for dealing with
    Columbia River juvenile fish mitigation in the Pacific Northwest. Specifically,



                                        14
the bill addressed a test drawdown of the Lower Granite and Lower Goose
Reservoirs in 1992 and the lowering of John Day Reservoir as follows:
       Columbia River juvenile fish mitigation, Washington, Oregon, and
       Idaho. The Committee has included $2,000,000 in the bill to
       compensate for direct damages to public and private property resulting
       from the test drawdown of the Lower Granite and Little Goose
       Reservoirs in March 1992. The Committee emphasizes that this does
       not create a precedent for how costs associated with any future
       drawdown or other fish mitigation effort in the Columbia River basin
       will be paid for or allocated. In addition, the Committee encourages
       the implementation of a regional solution to the salmon crisis which
       identifies a method of paying for recovery measures spread equitably
       among the various river user groups.

       The regional salmon recovery program developed in the Pacific
       Northwest calls for lowering John Day Reservoir to speed juvenile fish
       migration and reduce predation. Current studies by the Corps of
       Engineers evaluate facility modifications and impact mitigation
       requirements associated with this juvenile fish mitigation activity. The
       Committee includes $2,000,000 for advanced planning and design and
       other activities that enable continued progress toward operation of John
       Day Reservoir at minimum operating pool during juvenile fish
       migration. Obligation of these funds should be consistent with the
       findings of the Corps’ study, to be completed in November 1992, that
       will evaluate impacts on other uses and resources including a hatchery
       facility and a wildlife refuge. Consistent with current policy, the costs
       of this activity shall not be allocated until conclusion of the mitigation
       analysis.

Subsequent Energy and Water Development Appropriations Bills between 1995
and 2004 do not address how Columbia River Program costs should be accounted
for or reported. However, the Columbia River Program costs maintained in the
USACE CIP account escalated from the $4 million allocated in 1993 to
$649 million at the end of FY 2003. The additional costs involved studies and
prototypes that expanded well beyond the scope of the initial drawdown studies at
the Lower Granite, Little Goose, and John Day Reservoirs.

FY 2003 Financial Statement Presentation of Columbia River Program
Costs. The September 30, 2003, USACE financial ledgers for CIP included
$649 million of costs for the Columbia River Program. During our audit of the
FY 2003 beginning CIP balance, we identified sample items containing
approximately $256 million of Columbia River Program costs that were originally
recorded in COEMIS. In order to provide a more conservative CIP balance on the
financial statements, USACE made a statement-level adjustment to reduce the
CIP balance reported in their FY 2003 financial statements by $256 million.
However, the CIP costs were never removed from the CIP subsidiary financial
ledgers. USACE did not provide any disclosures in the notes to the financial
statements to describe the reimbursable nature of the Columbia River Program
assets or the power marketing relationship with BPA.




                                          15
Assessment of Columbia River Program Costs
    USACE did not properly account for approximately $536 million of the
    $649 million of costs involving the Columbia River Program. Specifically, the
    misreported Columbia River Program costs did not involve the construction of
    capital assets but were reported as CIP. Table 3 shows a breakout of the
    misreported Columbia River Program costs.


         Table 3. Breakout of Misreported Columbia River Program Costs
                                                                        CIP Balance
                Category of Columbia River Program Costs                (in millions)
    Studies, Prototypes & Management Costs in Audit Sample                  $175
    Completed Studies Included in USACE Journal Voucher                      256
    Studies & Prototypes Identified in Remaining Population                  105
     Total                                                                  $536


    Audit Sample Results. To assess the $3.8 billion CIP beginning balance for the
    USACE, Civil Works, FY 2004 Principal Financial Statements, we sampled 336
    items valued at $2.7 billion. Included in this sample were 48 items, valued at
    $226 million, involving the Columbia River Program. The USACE Northwest
    Division, through its Portland and Walla Walla Districts, reported a variety of
    Columbia River Program costs as USACE CIP. The Columbia River Program
    costs reported as CIP included on-going studies, completed studies, prototypes,
    program management, and real property construction. Of the 48 Columbia River
    Program items, 40 items valued at $175 million involved studies, prototypes and
    program management costs that should not have been reported as CIP. However,
    the portion of these costs related to hydroelectric power are required to be
    reimbursed by BPA and will result in a future economic benefit to the Federal
    Government. USACE will have to research these costs and determine the
    reimbursable amounts. The reimbursable Columbia River Program costs should
    be reported in a general ledger asset account other than CIP. The non-
    reimbursable costs should be expensed. The remaining eight items, valued at
    $51 million, involved the construction of real property assets.

            Studies, Prototypes and Program Management Costs. USACE
    reported $175 million of Columbia River Program costs involving research,
    studies, prototypes, and overall program management as CIP. However, these
    costs did not meet the capitalization criteria set forth by GAAP. For example, a
    sample item at the USACE Portland District (identified by fund account number
    G227485) involved a prototype upper turbine fish block established at the
    USACE Dalles Dam in 1995. The prototype was tested in FY 2000 and FY 2001
    and was found to be ineffective. The prototype was not intended to be a
    permanent fixture of the Dam and has been hoisted out of the water and is not in
    operation. However, the $6.7 million cost for the prototype was reported as CIP
    on September 30, 2003.



                                       16
             Construction of Real Property Assets. Of the 48 sample items, 8 items
     valued at $51 million involved the construction of real property assets. Seven of
     the items represented valid CIP as of September 30, 2003, and one item was
     completed in February 2003 and should not have been included in the CIP
     balance. These eight CIP assets are addressed in finding A of this report under
     the categories of USACE-owned valid CIP and USACE completed assets,
     respectively.

     Completed Studies in USACE Journal Voucher. The $256 million USACE
     journal voucher to reduce the CIP balance reported in its FY 2003 financial
     statements involved completed fish mitigation studies. This was only a
     statement-level adjustment and the applicable costs were never removed from the
     CIP subsidiary financial ledgers. USACE will have to research these costs and
     determine the reimbursable amounts. The reimbursable Columbia River Program
     costs should be reported in a general ledger asset account other than CIP. The
     non-reimbursable costs should be expensed.

     Studies and Prototypes Identified in Remaining Columbia River Program
     Population. Of the $167 million remaining CIP balance for Columbia River
     Program costs, approximately $105 million of the costs were described in
     CEFMS as studies or prototypes. USACE will also have to research these costs
     and properly report the reimbursable and non-reimbursable amounts.


Interest During Construction
     USACE Policy on Accruing Capital Interest. The USACE Engineering
     Regulation 37-2-10, Chapter 14, “Accounting Treatment for Multi-Purpose
     Projects,” December 31, 2003, provides guidance on the accounting treatment for
     field activities that operate multi-purpose hydroelectric projects that furnish
     electricity for resale to the public. A multi-purpose power project is one that
     serves more than one function (hydroelectric power, navigation improvement,
     flood control) and is authorized by congress. Generally, construction, operations,
     and maintenance costs at projects for power, irrigation, and/or water supply
     purposes are reimbursable. Costs for generating hydroelectric power are
     recovered through the marketing and selling of power to commercial activities.
     Power Marketing Agencies (including BPA), under the Department of Energy,
     perform this function. These agencies bill and collect funds for electricity sold
     and funds are deposited on behalf of USACE. According to the policy, costs
     include: repayment of construction costs; interest during construction; interest to
     operations; and annual operation and maintenance expenses. The construction
     phase is initiated when land is purchased or a construction contract is awarded,
     whichever occurs first. Interest during construction (capital interest) is required
     to be maintained in the CIP account until the asset is completed and placed in
     service. At the end of the year prior to completion, the interest obligation shall be
     added to the cost of the facility to be charged interest for subsequent periods.
     Upon completion, the applicable portion of the interest, together with the other
     costs representing the completed asset, will be transferred to the appropriate plant
     in service account. The interest rate will be the authorized rate at the time
     construction begins.


                                          17
    Columbia River Program Capital Interest Charges. Excessive capital interest
    charges were accruing for completed Columbia River Program items. The
    Columbia River Program is classified as a multi-purpose project for which capital
    interest is calculated as long as the costs reside in the CIP account. The continued
    compounding of capital interest for completed items inflates the CIP values that
    will eventually have to be reimbursed by BPA through their rates. For example, a
    sample item at the USACE Portland District (identified by fund account number
    G213596) involved a fish study at the Bonneville Dam. No CIP costs other than
    capital interest have been incurred since FY 2000. The FY 2003 CIP balance was
    $5.4 million and the accumulated capital interest through FY 2003 was
    $1.5 million. Based on the current USACE methodology, the estimated CIP
    balance at the end of FY 2010 will be $7.7 million, of which the capital interest
    will be $3.3 million, or about 43 percent of the total CIP balance for this fund
    account number.

    The CEFMS detailed cost ledgers showed that at the end of FY 2003
    approximately $100 million of capital interest had accumulated in the CIP
    account for the Columbia River Program. This represented 16 percent of the total
    $649 million Columbia River Program. Based on current USACE methodology,
    the capital interest will continue to accumulate for all CIP items until the
    completion of the entire Columbia River Program, which is currently estimated at
    FY 2010. Based on an average of the historical rates used to compute capital
    interest for the Columbia River Program and the current $649 million CIP value,
    we estimate that total capital interest of $368 million will accrue through
    completion of the Columbia River Program in FY 2010.


USACE Corrective Actions
    In March 2004, we met with USACE headquarters and GAO personnel to discuss
    concerns with the financial reporting of Columbia River Program costs. USACE
    officials agreed with the position reached by our audit team and GAO, that
    Columbia River Program costs that do not result in the creation of a capital asset
    should not be reported as USACE CIP. However, the reimbursable portion of
    these costs relating to power production represent an asset to the Federal
    Government because they are required to be reimbursed through BPA power
    rates. USACE developed a comprehensive CIP Information Paper to address our
    audit concerns. The CIP Information Paper describes deficiencies identified with
    the financial reporting of Columbia River Program costs and provides the
    following corrective actions to be implemented by USACE headquarters and field
    activities by October 31, 2004:

           •   USACE Northwest Division personnel shall determine the costs
               allocation at the project (macro) and purpose (micro) levels. Upon
               completing the analysis, costs belonging to non-Power features should
               either be placed in service or expensed depending on the situation.

           •   USACE headquarters will determine which standard general ledger
               account should be used to collect costs until the fish mitigation project
               is complete.


                                        18
           •   USACE headquarters will update the appropriate Congressional
               committees on the current amount of unallocated Columbia River
               Program costs and determine if the 1993 Senate Report language is
               still applicable.


Conclusion
    A comprehensive review of the Columbia River Program costs is necessary to
    determine which costs represent valid CIP, which costs represent reimbursable
    assets involving hydroelectric power, and which costs are non-reimbursable and
    should therefore be expensed. The Columbia River Program costs that do not
    ultimately result in the creation of a capital asset should not be reported as CIP.
    We are encouraged that USACE plans to update the Congressional Committees
    on the current portion of unallocated Columbia River Program costs. The
    Committee stated in the 1993 conference report that the $4 million of original
    Columbia River Program costs should not be allocated until completion of the
    initial draw down studies. However, $645 million of Columbia River Program
    costs have accrued in the CIP account since that time and need to be reported in a
    manner consistent with GAAP. Additionally, we are concerned with the
    excessive capital interest charges that have accrued and will continue to do so
    until FY 2010. USACE should discontinue accruing capital interest for
    completed Columbia River Program work.


Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Commander of the U.S. Army Corps of
    Engineers:

          1. Ensure proper implementation of the FY 2004 Construction-in-
    Progress Information Paper requiring corrective actions for Columbia River
    Fish Mitigation Program costs.

    Management Comments. The Commander of the U.S. Army Corps of
    Engineers concurred with the finding and recommendation. The Commander
    stated that the U.S. Army Corps of Engineers headquarters developed an
    information paper to ensure all corrective actions above are addressed. The
    information paper was reviewed by the Office of the Inspector General of the
    Department of Defense. The Commander stated that the expected completion
    date is October 31, 2004.

           2. Discontinue accruing capital interest for completed Columbia
    River Fish Mitigation Program work.

    Management Comments. The Commander of the U.S. Army Corps of
    Engineers concurred with the finding and recommendation. In addition, the
    Commander stated that his Civil Works Directorate was working with


                                        19
Congressional staff to develop a plan for reporting Hydropower-related costs.
The Commander also agreed to ensure that the financial statements are adjusted to
exclude the accrued interest for completed Columbia River Fish Mitigation
Program work. However, the Commander did not provide an estimated
completion date for the corrective actions.

Audit Response. The corrective actions were responsive but the Commander
needs to provide an estimated completion date. In addition, we request that the
Commander provide the plan for reporting Hydropower-related costs that results
from the coordination with Congressional staff.




                                   20
Appendix A. Scope and Methodology
   The audit assessment was performed to meet the requirements of Public Law
   101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990, as
   amended by Public Law 103-356, the “Federal Financial Management Act of
   1994,” October 13, 1994 and the National Defense Authorization Act of 2002.
   For this part of the audit assessment, we determined whether USACE had
   corrected the deficiencies we identified during FY 2003 and whether CIP assets
   were reported in a manner consistent with GAAP. This is consistent with the
   National Defense Authorization Act of 2002, as resources are directed towards
   identifying and improving financial management policies, procedures, and
   internal controls.

   We performed the audit at USACE headquarters and field locations. Specifically,
   we analyzed the CIP values for a statistical sample of 336 items, valued at
   $2.7 billion, and a random sample of 45 non-Federal cost share projects. We
   accomplished our audit at 38 USACE activities using a combination of site visits
   and data call methodology. We determined whether the CIP values were
   accurately reported and were supported by originating source data. In addition,
   we performed a review of CIP costs involving the Columbia River Program,
   including the calculation of interest during construction.

   We used statistical sampling methods to test USACE management assertions
   regarding the valuation and existence of the CIP account. We interviewed
   USACE Project Managers and Resource Management personnel at each activity
   to obtain background and status on each project reviewed. We also reviewed
   project fact sheets, pictures, and other related documentation for the various
   projects. Additionally, we reviewed all applicable documentation supporting the
   CIP values including, but not limited to: contractor pay estimates, contractor
   invoices, travel voucher settlements, and Military Interdepartmental Purchase
   Requests.

   Our primary objectives involved validating that CIP costs:
          •   were being incurred for assets that would be placed in service as
              USACE General PP&E upon completion,

          •   involved on-going construction at September 30, 2003,

          •   represented costs that should be capitalized based on the guidelines set
              forth by GAAP rather than expense-type events, and

          •   could be verified to originating source documentation.

   Our scope was limited in that we did not physically verify the existence or
   completeness of the CIP assets. In addition, we did not validate all labor and
   overhead values or the capital interest calculations for each CIP project. We
   performed additional limited tests on labor and capital interest calculations. Also,
   because of the significant amount of source data required to support the CIP
   assets, we primarily reviewed source data supporting individual costs exceeding


                                        21
one thousand dollars. We performed this audit from October 2003 through
August 2004 based on generally accepted government auditing standards.

USACE provided a universe of CIP assets extracted from CEFMS on
September 30, 2003. The CIP assets each represented the accumulation of
capitalized CIP costs identified by a unique CEFMS funding account number.
We reconciled the CIP universe provided by USACE to the CIP balance reported
on the financial ledgers for the corresponding time period. We removed CIP
assets with negative values from the sample population. We considered all
negative balance items as errors because assets should not have negative balances.
We established two sample populations based on the methodology used by
USACE to report the CIP value on the FY 2003 financial statements.

Sample Design. The Inspector General, DoD, Quantitative Methods Division
used a stratified variable sampling methodology to select a statistical sample of
CIP assets from a universe of 7,123 CIP assets valued at $3.8 billion. The sample
was composed of 336 CIP assets, valued at $2.7 billion. Appendix C provides a
breakout of the 336 sample items and CIP value by USACE activity reviewed. In
addition, the Inspector General, DoD, Quantitative Methods Division selected a
random sample of 45 non-Federal cost share projects from the population of 489
CIP projects that comprised the $3.7 billion USACE journal voucher to remove
costs for non-Federal cost share projects from the FY 2003 CIP financial
statement balance.

Sample Results. We did not project the results of our statistical sample because
the magnitude of errors identified in the $2.7 billion CIP balance for the
336 sample items reviewed was sufficient to show that the CIP account was
materially misstated. Specifically, $815 million of the $2.7 billion CIP costs were
found to be in error and should not have been reported as USACE CIP. Of the
$815 million, $640 million involved costs for assets owned by non-Federal
agencies, costs for completed assets, and costs for expense-type events, that are
reported in Finding A of this report. The remaining $175 million involved
Columbia River Program costs that are reported in Finding B of this report.

Of the 45 non-Federal cost share projects randomly sampled, eight failed the
control test because the costs would be placed in service by USACE upon
completion and not transferred to a non-Federal agency. Because this control
sample did not involve dollar values, we cannot determine the overall impact on
the USACE journal voucher to remove $3.7 billion costs for non-Federal cost
share projects from the FY 2003 CIP financial statement balance.

Use of Computer-Processed Data. We relied on computer-processed data from
CEFMS to determine the September 30, 2003, CIP universe for statistical
sampling purposes. We did not test the CEFMS general and application controls.
We were able to reconcile the September 30, 2003, CEFMS CIP universe to the
USACE trial balance for the corresponding period without a material variance.
Additionally, we performed other tests on the data to determine the accuracy and
reliability of the CIP account balance. For our audit, we required the originating
source data to support the CIP values reported in CEFMS. This was necessary
because recent reviews by the Government Accountability Office and the U.S.



                                    22
    Army Audit Agency determined that the CEFMS could not be relied on for
    financial statement auditing purposes.

    Use of Technical Assistance. The Inspector General, DoD, Quantitative
    Methods Division provided assistance in developing the statistical sample and
    calculating the statistical projections.

    GAO High-Risk Area. The GAO has identified several high-risk areas in DoD.
    This report provides coverage of the Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of USACE management controls over the financial reporting of CIP.
    We reviewed management’s self-evaluation applicable to those controls. We
    reviewed the FY 2003 Annual Statement of Assurance issued by USACE to
    determine whether the issues addressed in this report involving the financial
    reporting of CIP had been reported as material management control weaknesses.

    Adequacy of Management Controls. We identified material management
    control weaknesses, as defined by DoD Instruction 5010.40, related to the
    financial reporting of CIP. Specifically, the $3.8 billion beginning balance for
    CIP in the USACE FY 2004 Financial Statements was overstated by $640 million
    and an additional $188 million was unsupported. Also, USACE did not properly
    account for $536 million of Columbia River Program costs. The details of the
    management control weaknesses are provided in detail in the Finding sections of
    this report. All of the recommendations in this report, if implemented, will
    improve the accuracy and reliability of USACE financial reporting of CIP. A
    copy of the report will be provided to the senior official responsible for USACE
    management controls.

    Adequacy of Management’s Self-Evaluation. USACE officials did not identify
    CIP financial reporting as an assessable unit and, therefore, did not identify or
    report the material management control weaknesses identified by the audit.


Prior Coverage
    During the last 5 years, GAO and the Inspector General of the Department of
    Defense (IG DoD) have issued 3 reports discussing the USACE financial
    reporting of CIP and related CEFMS controls. Unrestricted GAO reports can be



                                       23
      accessed over the Internet at http://www.gao.gov. Unrestricted IG DoD reports
      can be accessed at http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-02-589, “Corps of Engineers Making Improvements, But
      Weaknesses Continue,” June 10, 2002

IG DoD
      IG DoD Report No. D-2004-017, “Reliability of Construction-in-Progress in the
      U.S. Army Corps of Engineers, Civil Works, Financial Statements,” November 7,
      2003




                                         24
Appendix B. Other Matters of Interest
   During our review we identified the following problems with the USACE CIP
   account that were limited in number and value. However, because our review
   was not designed to specifically identify these issues, we do not know the extent
   of their existence in the overall population of USACE CIP.

   COEMIS to CEFMS Conversion. For a limited number of sample items with
   costs that originated in COEMIS, USACE activities were able to provide the final
   COEMIS cost ledger prior to the conversion to CEFMS. We reconciled the final
   COEMIS cost ledger to the initial CEFMS cost ledger to determine if all CIP
   costs were properly converted. We found that for two items, USACE activities
   did not properly transfer all applicable costs. As a result, the CIP balance for two
   sample items was understated by $3.4 million. One item was from the
   Huntington District and the other item was from the Nashville District. A
   memorandum of agreement signed by USACE and the Office of the Inspector
   General of the Department of Defense, on July 9, 2004, addresses the support for
   recorded book cost of USACE Civil Works General PP&E. Specifically, USACE
   activities will be required to analyze and support costs that originated in COEMIS
   and should be able to ensure that all costs were properly converted to CEFMS.

   Capital Interest. USACE Omaha and Portland Districts did not properly
   calculate capital interest for CIP projects. During our review at the Omaha
   District we found that two items, fund account numbers C217462 and C217931
   had negative cumulative capital interest of $855,280 and $22,361, respectively.
   Omaha District personnel stated that the negative balances arose from a
   programming problem in FY 2000. The CEFMS Interest Detail Report did not
   run for the Omaha Multi-Purpose Projects in FY 1999 and ran improperly in
   FY 2000. USACE headquarters ran the report in FY 2000 but a programming
   problem created negative interest in many of the Multi-Purpose Projects. The
   Omaha District was working with USACE headquarters to identify and correct
   the capital interest balances for the applicable CIP items.

   During our review at the Portland District we identified seven sample items that
   did not have any capital interest. In addition, we identified 28 sample items that
   did not contain any capital interest for the month of September 2003. Upon
   further review, Portland discovered that capital interest was not properly applied
   to more than 263 CIP items between May 2003 and September 2003. Portland
   District personnel were unable to determine why the capital interest was not
   calculated for the items and is currently working with the USACE headquarters to
   identify and correct capital interest for all Multi-Purpose Projects.

   Abnormal CIP Balances. Our review of the September 30, 2003, CEFMS
   subsidiary ledgers identified CIP assets with negative balances of $1 million.
   This represented a significant reduction from the $41 million negative CIP in the
   September 30, 2002, CEFMS subsidiary ledgers. However, no asset accounts
   should have negative balances. In addition, for 93 records the CIP subsidiary
   balance exceeded the CIP general ledger balance by $4.3 million. The FY 2004
   CIP Information Paper required USACE activities to identify and correct
   abnormal CIP balances.


                                        25
Appendix C. Breakout of Audit Sample Items by
            Activity Reviewed
      USACE Activity        No. of Random   No. of Statistical
        Reviewed            Sample Items     Sample Items        CIP Value
   Louisville District            2                 49             $662,834,616
   Portland District              2                 51              437,038,172
   Little Rock District           3                 10              245,535,037
   Pittsburgh District            3                 11              216,087,429
   Omaha District                 2                 14              120,302,223
   Huntington District            1                 11              114,728,667
   Los Angeles District           1                 12              102,758,785
   Mobile District                0                  9              102,304,941
   Nashville District             2                 18               96,670,902
   Walla Walla District           0                 29               85,596,496
   Vicksburg District             3                 25               82,055,556
   Memphis District               0                  6               69,983,061
   Kansas City District           1                  6               51,857,085
   Tulsa District                 3                  7               45,577,821
   New Orleans District           0                 10               43,561,080
   Sacramento District            1                  9               33,108,363
   New England District           0                  4               27,754,880
   Baltimore District             2                  3               19,657,233
   New York District              2                  3               18,717,505
   Washington Aqueduct            0                  2               17,119,389
   Seattle District               1                  3               15,996,789
   USACE Headquarters             0                  4               15,672,104
   Fort Worth District            1                  4               14,859,809
   Philadelphia District          0                  6               13,483,384
   Wilmington District            0                  1               11,984,925
   Chicago District               2                  4                8,483,549
   Rock Island District           0                  6                8,390,938
   St. Louis District             3                  5                6,199,216
   Honolulu District              0                  1                4,948,096
   Buffalo District               1                  1                2,469,807
   Jacksonville District          2                  4                2,417,383
   Savannah District              0                  1                2,076,703
   Albuquerque District           1                  3                2,038,105
   Charleston                     0                  1                  903,203
   St. Paul District              2                  1                  547,494
   Detroit District               2                  2                  304,932
   Alaska District                1                  0                        0
   San Francisco District         1                  0                        0
    Total                        45                336           $2,704,025,678



                                      26
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Civil Works)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations




                                          27
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        28
u.s. Army Corps of Engineers Comments


                                   DEPARTMENT           OF THE ARMY
                                     u..s   ARMYCORPS OF ENGINEERS
                                               441 G ST. NW




    8>
                                       WASHINGTON.   o..c 20314-1000




      CEIR (36-2b)                                                             6 October 2004


      MEMORANDUM FOR Director, Defense FinancialAuditing Service, Inspector
      General Department of Defense. 400 Army Navy Drive, Arlington, VA
      22202-4704

      SUBJECT: Draft Report on Assessment of the U.S. Army Corps of Engineers,
      Civil Works, FY 2004 Beginning Financial Statement Balance of Construction-
      in-Progress (Project No. D2004FJ-0032)

      1. The USACE response to each Department of Defense Inspector General
      (DoDIG) report recommendations follows:

      2. Finding   A   - We   recommend            that the Commander,           U.S. Armv Corps
      of Engineers:
            1. Ensure proper Implementation of the FY 2004 Construction-In-
               Progress Information Paper requiring the following corrective
               actions:

                   a. Removal of costs for non-Federal cost share projects from the
                      Construction-in-Progress account.

                   b. Rerooval of costs involving bank stabilization work from the
                      Construction-In-Progress account.

                   c. Proper classification        of capitalized      versus expensed   costs.

                   d. Timely closeout of completed projects.

                   e. Supporting documentation for older projects originating in the
                      Corps of Engineers Management Information System.

                   f. Review of funded work items remaining in Corps of EngIneers
                      Financial Management System Constructlon-In-Progress
                      accountthat originated in the Corps of Engineers
                      Management Information System-




                                                   29
CEIR (36-2b)                                              6 October 2004
SUBJECT: Draft Report on Assessment of the U.S. Army Corps of Engineers, Civil
Works, FY 2004 Beginning Financial Statement Balance of Construction-in-Progress
(Project No. D2004FJ-0032)


            g. Correction of negativeConstruction-In..
                                                    Progressbalances and
               Imbalances between Construction-In-Progress general ledgers
               and cost records.
            Concur:
            HQ USACEhas developed an information paper to ensure all
            corrective actions above are addressed. The paper was reviewed
            by DODIG. The expected completion date is October 31, 2004.

      2. Disclose in the financial statements the portion of the Construction..
         In-Progress balance that will be turned over to other Federal
         agencies upon completion, and coordinate with the receiving
         agenCy to ensure that the receiving agency is not also reporting the
         same Construction-in-Progress balance on its financial statements.
            Concur:
            USACE will disclose In its FY 2004 Financial Statements - Note 10
            the portion of the Construction-In-Progress balance that will be
            turned over to other Federal agencies upon completion. In
            addition, we will coordinate with the receiving agency to ensure
            duplication of Construction-in-Progress  balances does not occur,


      3. Perform a comprehensive review of the Construction-in-Progress
         account and remove all costs involving the purchase or
         development of wildlife mitigation land. The related costs, as well
         as any future costs, should be expensed in the period incurred and
         reported as Stewardship Land on the Required Supplementary
         Stewardship Information Statement.

            Concur:
            USACE plans to perform a comprehensive      review of the
            Construction-in-Progress   account to determine if there is any
            wildlife mitigation work being done on Stewardship Land.
            Currently USACE does not report Stewardship Land since all
            Land purchased by USACE has been determined to meet the
            definition in Federal Accounting Standard Accounting Board


                                       2




                                     30
CEIR (36-2b)                                              6 October 2004
SUBJECT: Draft Report on Assessment of the U.S. Army Corps of Engineers, Civil
Works. FY 2004 Beginning Financial Statement Balance of Construction-in-Progress
(Project No. D2004FJ-0032)


            Statement  Number 8 Chapter 4 as being reportable as general
            Property Plant & Equipment.

            "Stewardship Land - Land not acquired for or in connection
            with [FN22-"Acquired for or In connection with" is defined as
            including land acquired with the intent to construct general PP&E
            and land acquired in combination with general PP&E,including
            not only land used as the foundation, but also adjacent land
            considered to be the general PP&E'scommon grounds.]"

3. Finding B - We recommend that the Commander, U.S. Army Corps
of Engineers:
      1. Ensure proper implementation of the FY 2004 Construction-in-
         Progress Information Paper requiring corrective actions for
         Columbia River Fish Mitigation Program costs.

            Concur:
            HQ USACE has developed an information paper to ensure all
            corrective actions above are addressed.. The paper was reviewed
            by DODIG..The expected completion date is October 31, 2004.


     2.. Discontinue accruing capital interest for completed Columbia River
         Fish Mitigation Program work.

           Concur:
           USACE agrees that under normal circumstances when work is
           completed interest during construction should discontinue. In
           the Columbia River Fish MitigatIon Project we have received
           contrary Congressional Language we interpret requiring us to
           keep It in the CIP account until "conclusion of the mitigation
           analysisWwhich is scheduled to end in 2010. Our CivilWorks
           Directorate  is currently working with Congressional    Staff to
           determine the best course of action.     Once USACE gets the
           opportunity to obtain Congressional guidance we will develop a
           plan to satisfy both GAAP and the regulatory         accounting
           requirements for Hydropower.     USACE will ensure the Financial

                                      3




                                     31
CEIR (36-2b)                                              6 October 2004
SUBJECT: Draft Report. on Assessment of the u..S. Army Corps of Engineers, Civil
Works, FY 2004 Beginning Financial Statement Balance of Construction-in"Progress
(Project No D2004FJ-D032)


            Statements are appropriately adjusted to not include the accrued
            Interest.


4. The POC for this response is Bill Holtzman (202) 761-1938,


FOR THE COMMANDER:

                             9kv.:~
                              DO~LD.     J. RIPP
                              Chief, Audit Executive
                              U.S. Army Corps of Engineers




                                     4




                                     32
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul J. Granetto
James L. Kornides
Amy J. Frontz
Anthony C. Hans
Kevin C. Currier
James C. Darrough
Brian L. Henry
Brian M. Stumpo
Bethany L. Seiple
Lusk F. Penn
James Hartman
Dharam V. Jain
Catherine Bird
